                          United States Department of Agriculture
                                 Office of Inspector General
                                  Washington, D.C. 20250


DATE:         January 31, 2013

AUDIT
NUMBER:       88501-0001-12


SUBJECT:      Review of Selected Controls of the eAuthentication System

The Office of Inspector General (OIG) review of the Department of Agriculture’s (USDA)
eAuthenticiation (eAuth) system evaluated the Office of the Chief Information Officer’s (OCIO)
controls over the system’s security. The eAuth system was created in 2003 to provide users with
a single user name and password that allows them to access over 400 USDA web-based
applications. The eAuth system generally operated effectively, efficiently, and in accordance
with guidance. However, we found that improvements to the eAuth system’s internal controls
could make critical USDA program and financial information less vulnerable to compromise.
While Federal agencies are required to use National Institute of Standards and Technology's
(NIST) recommended controls to reduce risks to Federal systems, we found that OCIO did not
implement some of the required NIST controls. This occurred because, although OCIO
managers and staff were aware of the requirements, they did not perform a systematic review of
the NIST requirements when designing, building, and maintaining the eAuth system. Without
incorporating applicable NIST controls, the eAuth system could be at greater risk to incidents
such as security breaches or service outages that negatively impact access to over 400 USDA
systems. The agency agreed with all recommendations.

This report is not being publicly released due to the sensitive security information it
contains.
